FEDERAL TRADE COMMISSION
 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS


   April 1, 2006 - September 30, 2006




               Report #35
                                     UNITED STATES OF AMERICA
                              FEDERAL TRADE COMMISSION
                                       WASHINGTON, D.C. 20580




Office of Inspector General
                                             October 20, 2006



The Honorable Deborah Majoras
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580

Dear Chairman Majoras:

       The attached report covers the Office of Inspector General's (OIG) activities for the
second half of fiscal year 2006 and is submitted pursuant to Section 5 of the Inspector General
Act of 1978, as amended.

        During the six-month reporting period ending September 30, 2006, the OIG issued an
audit of the FTC’s Implementation of the Federal Information Security Act for FY 2006. The
OIG also issued two management advisories.

       In addition, the OIG processed 52 consumer inquiries and complaints/allegations of
possible wrongdoing during the period, opened three new investigations into wrongdoing, and
closed six investigations. The results of these closed investigations were reported to
management for ultimate disposition.

       As in the past, management has been responsive in attempting to implement all OIG
recommendations. I appreciate management's support and I look forward to working with you in
our ongoing efforts to promote economy and efficiency in agency programs.

                                             Sincerely,



                                             Howard L. Sribnick
                                             Inspector General
                                             INTRODUCTION

        The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by combating unfair and deceptive practices, with emphasis on
those practices that might unreasonably restrict the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch and the
public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five work years and a budget of $917,500 for
fiscal year 2006.


                                                   AUDITS

AR-06-73         Review of FTC Implementation of the Federal Information Security
                 Management Act (FISMA)

       The OIG completed a review of Federal Trade Commission Implementation of the
Federal Information Security Management Act during fiscal year 2006.1

       The OIG found that FTC’s Office of Information and Technology Management (ITM)
continues to make progress in developing a mature information security program and has
implemented or addressed OIG-identified security vulnerabilities discussed in previous
independent evaluation reports and other security reviews.

       Notwithstanding the progress made by the FTC, the OIG identified weaknesses and
vulnerabilities that merit management’s attention. The more important findings include:

        •        FTC’s Disaster Recovery Plan (DRP) needs further development. The identified
                 alternate sites at 601 New Jersey Avenue and the East Central Regional Office
                 (ECRO) do not have sufficient space, power, or HVAC capability to function as a
                 backup site for the FTC, if the main data centers were disabled. Additionally,
                 there was no evidence that memoranda of understanding (MOU), service level
                 agreements (SLA), or agreements with the General Services Agency (GSA) are in
                 place to provide the extra resources needed at ECRO.




        1
                   As part of its review the OIG conducted an internal scan of the FTC network environment. The
results of the scan were reported to the agency under a separate non-public document.

                                                       -1-
       •       FTC has contracted with ICF Consulting (ICF) for the use of CommentworksSM
               software to receive and process comments from the public on proposed regulatory
               action. The FISMA review found that FTC managers responsible for
               CommentWorksSM are not notified when FTC employees leave the organization
               or are transferred within the organization and no longer need access to the system.
               Additionally, the review discovered that there is no contingency plan for ICF or
               CommentWorksSM in the event of a discontinuance of service.

       •       Policies, procedures and related security documentation for the FTC’s Internet
               Lab either do not exist or are not documented.2 There are no documented
               policies, procedures or forms for requesting, approving or creating/removing user
               accounts for the Internet Lab. OIG was also advised that user ID’s and passwords
               are not required for users to log onto and access Internet Lab workstations. There
               are no documented maintenance procedures. Backups are not conducted at this
               time; however, raw data is archived.

       •       The East Central Regional Office may take longer to recover from an incident
               since they do not have a contingency plan. All regional offices rely on
               Headquarters for contingency planning and disaster recovery. The FTC DRP and
               Continuity of Government kit do not address recovery of regional offices.


                           MANAGEMENT ADVISORIES

MA-06-12       Vulnerabilities Pertaining to Oversight of Receiver

        The OIG completed analysis of FTC=s practices and procedures for recommending and
monitoring receivers appointed in consumer fraud cases. The OIG found that there was no
centralized repository for information regarding the qualifications of potential receivers, there
was no procedure in place to assure that potential receivers had not in the past been disciplined
in connection with the performance of their fiduciary obligations, and that monitoring of
receivers’ performance was left to the court (which, in many cases, did not enforce reporting
requirements included in the order establishing the receivership). The OIG recommended that
the agency centralize the maintenance of information gathered on potential receivers, require that
potential receivers attest that they had not been the subject of prior disciplinary action, and
implement procedures to allow the agency to more closely monitor the work of receivers.
Management has agreed with the recommendations included in this advisory and is in the
process of taking actions to complete implementation.



MA-06-14       Improved Oversight of FTC Travel Card Program

       2
              The Internet Lab is an internal bank of computers that are not connected to the
agency’s network and whose gateway to the internet cannot be traced back to the FTC’s IP
address. The Lab is used by agency staff to conduct law enforcement investigations.
                                               -2-
        The OIG completed an examination of controls relating to FTC travel credit card
program. The OIG found a number of areas of employee abuse of the travel credit card program
including charging personal expenses not related to government travel, taking cash advances for
personal use and not paying off the balance owed on the credit card in a timely manner. The
OIG also found that the agency was usually unaware of employee misuse of travel credit cards
until notified by the card issuer that the employee’s charge privileges were about to be
suspended or cancelled. The OIG recommended a number of improvements to management
controls over this program. In response to these recommendations, management undertook
action including: routine screening of employee charges on FTC issued travel credit cards;
requiring that holders of travel credit cards sign a notice and attestation demonstrating that they
are aware that charges may only be made for approved purchases while on official travel and that
balances owed must be paid in a timely manner and the hiring of a new manager to monitor the
program. In the view of the OIG, these actions will significantly improve the integrity of this
program.


                         PLANNED AUDITS AND REVIEWS

Audit of the FTC’s Financial Statements for Fiscal Year 2006

        The purpose of the audit is to express an opinion on the financial statements of the
Federal Trade Commission for the fiscal year ending September 30, 2006. The principal
statements to be audited include the (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement
of Changes in Net Position; (d) Statement of Budgetary Resources; (e) Statement of Financing;
(f) Statement of Custodial Activity and notes to the financial statements. The OIG will also test
the internal controls associated with the movement of transactions through the FTC’s financial
system and assess compliance with selected laws and regulations.

       The OIG is using guidance contained in OMB Bulletin No. 01-02, Audit Requirements
for Federal Financial Statements, in performing this audit. The audited financial statements are
required to be included in the financial section of the agency’s Performance and Accountability
Report to be issued on or before November 15, 2006.

Review of the Federal Trade Commission Purchase Card Program

        The objective of this audit will be to assess internal controls over the government
purchase card program. Specific audit objectives will be to (i) document controls; (ii) determine
the functioning of processes and procedures; and (iii) assess areas that could be strengthened to
better ensure that the goals of the program are achieved.

Audit of the Operations of the Redress Office of the Bureau of Consumer Protection

        The scope of the audit includes how the program is managed, how well tracking and
reporting responsibility is performed, the status of implementation of OIG recommendations
regarding the appointment of receivers and tests of internal controls.

                                               -3-
Review of the Consumer Response Center

        The scope of the review includes how CRC classifies complaints and inquiries for
assistance, how responsive the CRC is to meeting consumer complaints including the accuracy
of recording information into the database , how “user friendly” is the CRC reporting system and
how well personally identifiable information is protected.


                               INVESTIGATIVE ACTIVITIES

        The Inspector General is authorized by the IG Act to receive and investigate allegations
of fraud, waste and abuse occurring within FTC programs and operations. Matters of possible
wrongdoing are referred to the OIG in the form of allegations or complaints from a variety of
sources, including FTC employees, other government agencies and the general public.

         Reported incidents of possible fraud, waste and abuse can give rise to administrative,
civil or criminal investigations. OIG investigations are also initiated when there is an indication
that firms or individuals are involved in activities intended to improperly affect the outcome of
particular agency enforcement actions. Because this kind of wrongdoing strikes at the integrity
of the FTC's consumer protection and antitrust law enforcement missions, the OIG places a high
priority on these investigations.

        In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other
OIG’s, the Federal Bureau of Investigation, U.S. Postal Inspection Service, U.S. Secret Service,
U.S. Marshal’s Service, Internal Revenue Service, Capitol Police, Federal Protective Service as
well as state agencies and local police departments.

Investigative Summary

        During this reporting period, the OIG received 52 consumer and other inquiries and
reports of possible wrongdoing. Of the 52 complaints, 21 involved issues that fall under the
jurisdiction of FTC program components (identity theft, credit repair, etc.). Consequently, the
OIG referred these matters to the appropriate FTC component for disposition.

        Of the remaining complaints, the OIG opened 3 new investigations. The OIG offered
some assistance to other OIG’s or law enforcement organizations in conducting ongoing
investigations respecting 3 inquiries. Another five complaints remained ongoing at the end of
the reporting period. Finally, the OIG closed the 20 remaining complaints without any further
action.




                                               -4-
       Following is a summary of the OIG's investigative activities for the six-month period
ending March 31, 2006:

                            Cases pending as of 3/31/06        3
                            PLUS: New cases                    3

                            LESS: Cases closed                (6)

                            Cases pending as of 9/30/06        0

Investigations Closed

       The OIG closed the following six investigations during this reporting period:

        The OIG closed a file, opened during a prior reporting period, involving misuse of a
Government-issued travel card. The investigation stemmed from the agency’s ongoing
monitoring of employee use of Government-issued credit cards, as previously reported. The
investigative referral to agency management detailed personal travel card transactions totaling
thousands of dollars and spanning more than a year. The matter was referred to management and
disciplinary action is pending.

        The OIG continued investigative work on two computer misuse matters opened during a
prior reporting period and opened a new computer misuse investigation. Investigative work on
all three matters was completed during this reporting period and the investigative files were
closed.

        The first computer misuse investigation arose from the agency’s ongoing monitoring of
employee usage of the internet. The referral alleged that an employee in the agency’s
information technology program office allegedly installed a software program from an internet
website that enables users to downloaded illegal software license keys (i.e., numerical codes that
allow use of software applications without proper authorization from the software
manufacturers). Forensic analysis revealed that the employee had previously installed this
unauthorized program from an internet website and downloaded illegal software license keys
onto his computer. Additional unauthorized software programs were found on his Government
computer. We referred the investigative findings to management and disciplinary action is
currently pending.

        The second computer misuse investigation involved allegations that an agency attorney
had downloaded pornographic images in violation of agency policy. Management referred the
matter to this office because the downloaded images may have been in violation of criminal
statute. The attorney had been the subject of a prior OIG investigation in 2004 and management
was alerted that the problem may be ongoing when the employee allegedly used the agency’s
computer printer to print a pornographic image. Management authorized a forensic analysis of
the employee’s computer that revealed the presence of additional pornographic images that were
not present on his computer when it was analyzed as part of the earlier OIG investigation.
Disciplinary action is currently pending.

                                               -5-
        The third computer misuse investigation focused on allegations that an agency attorney
was misusing Government computers to view pornographic images. Because management
obtained evidence that criminal statutes could be implicated, the OIG was advised concerning
the matter. Our investigation revealed that the employee had a history of the alleged misuse and
that he was using computers that were not specifically assigned to him to view graphic images in
violation of agency policy. There was also evidence that he left the office during scheduled
work hours to meet individuals with whom his initial contact was made online. During the
pendency of the OIG investigation, the employee voluntarily retired from federal service.

        Another investigation was in response to the theft of a government laptop from a locked
vehicle while the attorney responsible for the laptop was on official travel. The laptop contained
personally identifiable information (i.e., g names, addresses, Social Security numbers, dates of
birth, drivers license numbers, voter registration information and in some instances financial
account numbers) gathered in law enforcement investigations for approximately 110 individuals.
These individuals were defendants in FTC cases, relatives of FTC defendants, individuals
associated with FTC defendants or individuals whose names are similar to FTC defendants. The
agency promptly notified the affected individuals that their personal information was
compromised and provided information on the steps that the individuals should consider taking
to limit their risk of identity theft. The agency also offered each affected individual one year of
free credit monitoring. The OIG investigation into the theft revealed that the attorney
responsible for the laptop failed to adhere to her supervisor’s explicit instruction to remove all
personally identifiable information from her laptop prior to business travel, which left the
personally identifiable information contained on the stolen laptop vulnerable to unauthorized
disclosure.
        The FTC has no reason to believe the information on the laptops, as opposed to the
laptops themselves, was the target of the theft. Our investigation also revealed that the
attorney’s organization failed to follow agency procedures regarding the disposition of the
employee’s old computer that had been replaced. The OIG referred the matter to management
for further action.
        The sixth investigation closed during this reporting period involved an allegation that an
agency employee physically accosted and behaved in an unprofessional manner toward an
individual who attended an FTC-sponsored industry conference. The employee, an agency
investigator, attended the conference and had been assigned many logistical and organizational
responsibilities relating to the conference. The complaint to the OIG alleged that, on two
occasions, the employee physically restrained an individual representing an industry consumer
advocacy group that has been critical of the FTC’s enforcement of regulations governing the
industry. The agency employee also allegedly informed the conference attendee that he would
have to leave the conference because he had not preregistered for the event. The OIG obtained
statements from three separate eyewitnesses to the alleged incidents and presented the employee
with the evidence. The employee denied that any of the alleged incidents occurred as described
by the eyewitnesses and complainant. We referred our conclusion that the employee had
mistreated the conference attendee to management for appropriate action.




                                               -6-
Matters Referred for Prosecution

        During this reporting period the OIG referred no new cases to the Department of Justice
for prosecution.

Significant Management Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.
For this reporting period there were no significant final management decisions made on which
the IG disagreed and management did not revise any earlier decision on an OIG audit
recommendation.

Access to Information

        The IG is to be provided with ready access to all agency records, information, or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

        During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. In addition, management has taken action to implement most
of OIG’s outstanding recommendations. The OIG is awaiting final action by the Redress
Administration Office of the Bureau of Consumer Protections regarding automated tracking of
redress contractor performance and the centralization of information regarding potential
receivers.

Review of Legislation

        Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or, upon request, affecting the operations of the
OIG. During this reporting period, the OIG reviewed no legislation.



Contacting the Office of Inspector General
                                                -7-
        Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees may also call
the OIG's investigator directly on (202) 326-2618. A confidential or anonymous message can be
left 24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed
directly to chogue@ftc.gov. OIG mail should be addressed to:

                                     Federal Trade Commission
                                     Office of Inspector General
                                     Room NJ-1110
                                     600 Pennsylvania Avenue, NW
                                     Washington, D.C. 20580

        OIG reports can be obtained directly from the internet at: www.ftc.gov/oig. A visitor to
the OIG home page can download recent OIG semiannual reports to Congress, the FY 1998 -
2005 financial statement audits, and other program and performance audits issued beginning in
FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to
the OIG. In addition to this information resource about the OIG, visitors are also provided a link
to other federal organizations and Office of Inspectors General.

Internet Access

        The OIG can be accessed via the world wide web at: http://www.ftc.gov/oig. A visitor to
the OIG home page can download recent OIG semiannual reports to Congress, the FY 1998 -
2005 financial statement audits and other program and performance audits issued beginning in FY
1999. A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to the
OIG. In addition to this information resource about the OIG, visitors are also provided a link to
other federal organizations and office of inspectors general.




                                           TABLE I
                                               -8-
                      SUMMARY OF INSPECTOR GENERAL
                         REPORTING REQUIREMENTS

   IG Act
 Reference                      Reporting Requirement                            Page(s)

Section 4(a)(2)       Review of legislation and regulations                         7

Section 5(a)(l) Significant problems, abuses and deficiencies              1-3

Section 5(a)(2)       Recommendations with respect to significant
                      problems, abuses and deficiencies                             1-3

Section 5(a)(3)       Prior significant recommendations on which
                      corrective actions have not been made                         7

Section 5(a)(4)       Matters referred to prosecutive authorities                   7

Section 5(a)(5)       Summary of instances where information was refused            7

Section 5(a)(6)       List of audit reports by subject matter, showing dollar
                      value of questioned costs and funds put to better use 11

Section 5(a)(7)       Summary of each particularly significant report               1-3

Section 5(a)(8)       Statistical tables showing number of reports and
                      dollar value of questioned costs                              10

Section 5(a)(9)       Statistical tables showing number of reports and dollar
                      value of recommendations that funds be put to better use      10

Section 5(a)(10)      Summary of each audit issued before this reporting
                      period for which no management decision was made
                      by the end of the reporting period                            7

Section 5(a)(11)      Significant revised management decisions                      7

Section 5(a)(12)      Significant management decisions with which
                      the inspector general disagrees                               7




                                          TABLE II
                                               -9-
                  INSPECTOR GENERAL ISSUED REPORTS
                       WITH QUESTIONED COSTS


                                                Number        Dollar Value

                                                         Questioned   Unsupported
                                                           Costs        Costs




A.   For which no management decision has
     been made by the commencement of the
     reporting period                                0        0        (     0   ]

B.   Which were issued during the reporting
     period                                          0        0        (     0   ]

     Subtotals (A + B)                               0        0        (     0   ]

C.   For which a management decision was
     made during the reporting period                0        0        (     0   ]

     (I) dollar value of disallowed costs            0        0        (     0   ]

     (ii) dollar value of cost not disallowed        0        0        (     0   ]

D.   For which no management decision was
     made by the end of the reporting period         0        0        (     0   ]


     Reports for which no management
     decision was made within six months of
     issuance                                        0        0        (     0   ]




                                        TABLE III

                                            - 10 -
         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                       Number   Dollar Value
A.   For which no management decision has been made
     by the commencement of the reporting period          0          0


B    Which were issued during this reporting period       0          0


C.   For which a management decision was made during
     the reporting period                                 0          0
     (i) dollar value of recommendations that were
     agreed to by management                              0          0
     - based on proposed management action                0          0
     - based on proposed legislative action               0          0
     (ii) dollar value of recommendations that were
     not agreed to by management                          0          0


D.   For which no management decision has been made
     by the end of the reporting period                   0          0
     Reports for which no management decision was
     made within six months of issuance                   0          0




                                           - 11 -
